July 11, 2003

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT:        Audit Report – Highway Network Scheduling – Southwest Area
                (Report Number TD-AR-03-010)

                                        Background
On July 5, 2002, the Office of Inspector General (OIG) announced an audit of highway
network scheduling. The announcement responded to a request from the vice
president, Network Operations Management. This report is one of a series of reports.
It focuses on the Southwest Area (Project Number 02YG017TD003).




                      Highway contractor loading and unloading mail at the
                    Little Rock, Arkansas, Processing and Distribution Center
                                        January 16, 2003.




                                    Restricted Information
Highway Network Scheduling – Southwest Area                                      TD-AR-03-010



                        Objective, Scope, and Methodology
The objective of our audit was to evaluate the effectiveness of scheduled highway
contract routes and to identify opportunities for cost savings.

The vice president, Network Operations Management, provided a list of plant-to-plant
highway contract routes he wanted considered for elimination or consolidation. A total
of 1,997 trips were operated under the 191 Southwest Area contracts. During our work
we examined the list and identified nine contracts that were inactive, terminated, or
replaced. We provided the Southwest Area transportation manager with a list of
contracts we intended to audit, interviewed officials at headquarters and in the
Southwest Area, reviewed relevant Postal Service policies and procedures, visited
three plants, interviewed managers and employees, observed and photographed
operations, analyzed data in the Postal Service “Transportation Information
Management Evaluation System,” evaluated mail volume and critical entry times for
First-Class Mail and Priority Mail, and analyzed all 1,997 trips. We did not evaluate the
reliability of the data obtained from the Transportation Information Management
Evaluation System.

Work associated with the Southwest Area was conducted from October 2002 through
July 2003 in accordance with generally accepted government auditing standards, and
included such tests of internal controls, as were considered necessary under the
circumstances. We discussed our findings with appropriate management officials, and
included their comments, where appropriate.

                                  Prior Audit Coverage
Our audit report, Highway Network Scheduling – Pacific Area (Report Number
TD-AR-02-003, dated September 24, 2002), identified 158 highway contract trips we
believed could be eliminated, and consequently result in savings to the Pacific Area of
about $4.5 million. Management agreed with 124 trip terminations, but subsequently
made certain substitutions they considered appropriate. Although local plant managers
disagreed with 34 trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all cancelled trips, as well as the
resulting savings. We considered management’s actions responsive to our
recommendations. For other related prior audit coverage see Appendix A.

                                       Audit Results

Unnecessary Highway Contract Trips

Our audit revealed the Southwest Area could save about $6 million by terminating
249 unnecessary trips. The trips could be terminated because trip mail volume was
low, and mail could be consolidated on other trips without negatively affecting service.




                                                2
                                     Restricted Information
Highway Network Scheduling – Southwest Area                                               TD-AR-03-010



As indicated below, 9 of the 12 affected contracts will expire in June 2003. The other
three contracts have 2 to 3 years remaining.

             TRIP                    AFFECTED               NUMBER OF        ANTICIPATED
           CATEGORY                 CONTRACTS                 TRIPS            SAVINGS

      Contracts expiring in
      June 2003                             9                     187         $4,506,625

      Contracts expiring in
      2 to 3 years                          3                     62          $1,482,457

      All Terminated Trips                 12                     249         $5,989,082

Savings could be attained by not renewing trips identified as unnecessary on contracts
scheduled to expire in June 2003, and by canceling unnecessary trips that are currently
contracted to continue 2 to 3 years. The savings we identified included savings from
nonrenewable trips, plus savings from trip cancellations net of cancellation fees totaling
approximately $165,742.

After we completed our analysis, we discussed the 249 trips with plant managers. The
managers agreed 148 trips could be cancelled, but disagreed with our assessment of
another 101 trips. The trip cancellation proposals are summarized in the following table:

                                 TRIP CANCELLATION PROPOSALS

                   CANCELLATION                     NUMBER                   IDENTIFIED
                     CATEGORY                       OF TRIPS      APPENDIX    SAVINGS

       Trips we identified during audit work with
       which plant managers agreed.                   148               B    $3,439,954

       Trips we identified during audit work with
       which plant managers disagreed.                101               C     2,549,128

       Total                                          249                    $5,989,082



The plant managers disagreed with the 101 proposals for various reasons–generally
that eliminating the trips would reduce operational flexibility or affect service. We
continue to believe the potential for trip cancellation exists without jeopardizing service
or operational flexibility.

Recommendation

We recommend the vice president, Southwest Area Operations:

       1. Cancel the 148 trips, which plant managers agree are unnecessary.



                                                    3
                                         Restricted Information
Highway Network Scheduling – Southwest Area                                    TD-AR-03-010



Management’s Comments

Management concurred with the intent of our recommendation to eliminate the 148 trips
plant managers agree are unnecessary. They stated they had already eliminated
52 trips, and would eliminate 33 additional trips when the relevant contracts expired
July 1, 2003. Regarding the remaining 63 trips, management explained that they were
currently reviewing the trips; would make certain substitutions they felt appropriate; and
would notify us of actions they had taken. Management’s comments, in their entirety,
are included in Appendix D of this report.

Recommendation

We recommend the vice president, Southwest Area Operations:

       2. Reassess the 101 trips plant managers feel are necessary, cancel trips
          indicated by the reassessment as unnecessary, and document the reasons
          for retaining the other trips.

Management’s Comments

Management concurred with the intent of our recommendation to reassess the 101 trips
plant managers feel are necessary. They stated they would reassess the trips, had
already identified four trips for cancellation, would continue to evaluate the remaining
trips, and would notify us of the actions they had taken.

Other Management Comments

Southwest Area management stated that they appreciated the efforts of the OIG to
optimize the transportation network, and noted their own efforts in that regard.
Specifically, they cited more than $16 million in savings or potential cost avoidances.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. We consider the
actions taken and planned sufficient to address the issues we identified. We did not
audit or validate the savings or cost avoidances management noted in conjunction with
their own initiatives, but we welcomed the opportunity to work with Southwest Area
management to optimize networks, reduce cost, and add value to the Postal Service.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                                  4
                                       Restricted Information
Highway Network Scheduling – Southwest Area                                 TD-AR-03-010



We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    Anthony M. Pajunas
    Susan M. Duchek




                                                  5
                                       Restricted Information
Highway Network Scheduling – Southwest Area                                 TD-AR-03-010



                    APPENDIX A. PRIOR AUDIT COVERAGE

Our audit report, Highway Network Scheduling – Northeast Area (Report
Number TD-AR-03-002, dated November 25, 2002), identified 18 highway contract
trips we thought could be eliminated, and consequently result in savings to the
Northeast Area of about $777,000. Management agreed with ten trip terminations, but
subsequently made certain substitutions they considered appropriate. Although local
plant managers disagreed with eight trips we identified, management agreed to
reassess the trips, retain or eliminate trips as appropriate, and notify the OIG of all
cancelled trips, as well as the resulting savings. We considered management’s actions
responsive to our recommendations.

Our audit report, Highway Network Scheduling – Capital Metro Area (Report
Number TD-AR-03-007, dated March 28, 2003), identified 34 highway contract trips
we thought could be eliminated, and consequently result in savings to the Capital Metro
Area of about $1.1 million. Plant managers agreed that 20 trips should be cancelled,
but disagreed with our assessment of another 14 trips. We recommended that
management cancel the 20 trips, which plant managers agree are unnecessary, and
reassess the 14 trips plant managers feel are necessary.

Our audit report, Highway Network Scheduling – New York Metro Area (Report Number
TD-AR-03-008, dated March 31, 2003), identified 32 highway contract trips we thought
could be eliminated, and consequently result in savings to the New York Metro Area of
about $470,000. Plant managers agreed that 12 trips should be cancelled, but
disagreed with our assessment of another 20 trips. We recommended that
management cancel the 12 trips, which plant managers agree are unnecessary, and
reassess the 20 trips plant managers feel are necessary.




                                                  6
                                       Restricted Information
Highway Network Scheduling – Southwest Area                                                                                  TD-AR-03-010




                            APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                      WHICH PLANT MANAGERS AGREED
  Effective
Date of Last         Highway                                                                                                     Estimated
  Contract           Contract                                                                       Contract    Indemnity          Cost
   Change             Route          Trip Number                    Origin/Destination              Savings       Fees1           Savings
7/1/01                790AD        9, 10, 11, and       Amarillo Processing and Distribution        $ 124,251      $     0          $ 124,251
                                   12                   Facility to Amarillo Airport and return
5/18/02               707AD        3, 4, 7, 8, 11,      Baton Rouge Processing and                    232,839           0             232,839
                                   and 12               Distribution Center to Baton Rouge
                                                        Airport and return
3/23/02                77860       1 and 2              Bryan, Texas Customer Service Facility        225,894           0             225,894
                                                        to East Texas, Processing and
                                                        Distribution Center and return
9/8/01                783AD        1, 2, 7, 8, 13,      Corpus Christi Processing and                 200,316           0             200,316
                                   14, 15, 16, 17,      Distribution Center to Corpus Christi
                                   18, 21, and 22       Airport and return
10/19/02              720CA        13, 14, 19, and      Little Rock Processing and Distribution       141,036       14,118            126,918
                                   20                   Center to Little Rock Air Mail Center and
                                                        return
10/19/02              720CA        65 and 66            Little Rock Processing and Distribution        40,858        4,090             36,768
                                                        Center to Forrest Park Station and return
10/19/02              720CA        83 and 84            Little Rock Processing and Distribution        73,665        7,374             66,291
                                                        Center to Little Rock Industrial Station
                                                        and return
10/19/02              720CA        95, 96,              Little Rock Processing and Distribution       140,361       14,050            126,311
                                   103, and 104         Center to Pleasant Ridge Station and
                                                        return
10/19/02              720CA        241 and 242          Little Rock Processing and Distribution        31,625        3,166             28,459
                                                        Center to Veteran’s Administration and
                                                        return
10/19/02              720CA        243 and 244          Little Rock Processing and Distribution        40,936        4,098             36,838
                                                        Center to Hertiage Veterans
                                                        Administration Facility and return

1
    Highway contract routes reflecting $0 indemnity fees expire in June 2003.
                                                                             7
                                                                   Restricted Information
Highway Network Scheduling – Southwest Area                                                                             TD-AR-03-010



                      APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                WHICH PLANT MANAGERS AGREED
  Effective
Date of Last    Highway                                                                                                     Estimated
  Contract      Contract                                                                   Contract      Indemnity            Cost
   Change        Route      Trip Number                    Origin/Destination              Savings         Fees1             Savings
10/19/02         720CA     247and 248         Little Rock Processing and Distribution      $ 37,247         $ 3,728           $ 33,519
                                              Center to Big Mac Building and return
10/19/02         720CA     251 and 252        Little Rock Processing and Distribution           47,788          4,784              43,004
                                              Center to University of Arkansas Little
                                              Rock mailroom and return
10/19/02         720CA     253 and 254        Little Rock Processing and Distribution           55,519          5,557              49,962
                                              Center to Family Life and Distribution
                                              Office and return
10/19/02         720CA     255 and 256        Little Rock Processing and Distribution           52,532          5,258              47,274
                                              Center to ALLTEL 3 and return
10/19/02         720CA     257 and 258        Little Rock Processing and Distribution           25,300          2,533              22,767
                                              Center to Blue Cross Blue Shield and
                                              return
10/19/02         720CA     259 and 260        Lindsey Road Annex to ALLTEL 1 and               139,515         13,965             125,550
                                              return
10/19/02         720CA     261 and 262        Lindsey Road Annex to ALLTEL 2 and                72,881          7,295              65,586
                                              return
10/19/02         720CA     273 and 274        Little Rock Processing and Distribution           41,399          4,144              37,255
                                              Center to Commercial Mail and return
10/6/01          793AD     9 and 10           Lubbock Processing and Distribution               63,506             0               63,506
                                              Facility to Lubbock Airport and return
8/11/01          797CD     3, 4, 7, and 8     Midland Processing and Distribution               17,622          2,521              15,101
                                              Facility to Midland International Airport
                                              and return
1/5/02           730AA     107 and 108        Oklahoma City Processing and                      84,374             0               84,374
                                              Distribution Center to Britton Station and
                                              return
1/5/02           730AA     207 and 208        Oklahoma City Processing and                 $    68,437     $       0          $    68,437
                                              Distribution Center to Dell City Carrier
                                              Station and return


                                                                    8
                                                         Restricted Information
Highway Network Scheduling – Southwest Area                                                                           TD-AR-03-010



                      APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                WHICH PLANT MANAGERS AGREED
  Effective
Date of Last    Highway                                                                                                   Estimated
  Contract      Contract                                                                   Contract      Indemnity          Cost
   Change        Route      Trip Number                   Origin/Destination               Savings         Fees1           Savings
1/5/02           730AA     216                Dell City Carrier Station to Oklahoma           34,218              0             34,218
                                              City Processing and Distribution Center
1/5/02           730AA     407 and 408        Oklahoma City Processing and                      76,874           0              76,874
                                              Distribution Center to Midwest City
                                              Station and return
1/5/02           730AA     907 and 908        Oklahoma City Processing and                      10,872           0              10,872
                                              Distribution Center to Center City Station
                                              and return
1/5/02           730AA     1105 and 1106      Oklahoma City Processing and                       9,492           0                   9,492
                                              Distribution Center to Farley Station and
                                              return
1/5/02           730AA     1205, 1212,        Oklahoma City Processing and                      91,874           0              91,874
                           1207, and 1208     Distribution Center to Northwest Station
                                              and return
1/5/02           730AA     1405, 1406         Oklahoma City Processing and                      42,187           0              42,187
                                              Distribution Center to Southeast Station
                                              and return
1/5/02           730AA     2402               Southeast Station to Oklahoma City                21,094           0              21,094
                                              Processing and Distribution Center
1/5/02           730AA     1607, 1608         Oklahoma City Processing and                      62,490           0              62,490
                           1611, and 1612     Distribution Center to Westside Station
                                              and return
1/5/02           730AA     2613-2616 and      Oklahoma City Processing and                     298,016           0             298,016
                           2619-2622          Distribution Center to Oklahoma City Air
                                              Mail Facility and return
1/5/02           730AA     3401-3404 and      Oklahoma City Processing and                 $   109,894      $    0          $ 109,894
                           3407-3416          Distribution Center to Oklahoma City Air
                                              Mail Facility and return




                                                                    9
                                                         Restricted Information
Highway Network Scheduling – Southwest Area                                                                        TD-AR-03-010



                      APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                WHICH PLANT MANAGERS AGREED
  Effective
Date of Last    Highway                                                                                                Estimated
  Contract      Contract                                                                 Contract     Indemnity          Cost
   Change        Route      Trip Number                  Origin/Destination              Savings        Fees1           Savings
1/5/02           730AA     1805, 1806 and     Oklahoma City Mail Processing Annex to        95,624             0             95,624
                           3501-3508          Oklahoma City Air Mail Facility and
                                              return
1/5/02           730AA     1903, 1904         Oklahoma City Mail Processing Annex to       172,498            0             172,498
                                              Village Station and return
1/5/02           730AA     2003, 2004         Oklahoma City Mail Processing Annex to       170,623            0             170,623
                                              Hefner Station and return
1/5/02           730AA     2103, 2104         Oklahoma City Mail Processing Annex to       117,186            0             117,186
                                              Bethany Station and return
11/7/01          710AD     27, 28, 33, 34,    Shreveport Processing and Distribution       192,290            0             192,290
                           1-8, 11, 12, 21-   Center to Integrated Airlines,
                           24, 31, 32, 35,    Incorporated and return
                           and 36
10/5/02          740BD     15, 16, 17, and    Tulsa Processing and Distribution Center      81,678         8,176             73,502
                           18                 to Tulsa Air Mail Facility and return
Total                      148 Trips                                                     $3,544,811    $104,857          $3,439,954




                                                                   10
                                                         Restricted Information
Highway Network Scheduling – Southwest Area                                                                   TD-AR-03-010




                          APPENDIX C. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                  WHICH PLANT MANAGERS DISAGREED
  Effective
Date of Last   Highway                                                                                                  Estimated
  Contract     Contract                                                                   Contract      Indemnity         Cost
  Change        Route        Trip Number                  Origin/Destination              Savings          Fees          Savings
7/1/01          790AD      19, 20             Amarillo Processing and Distribution        $    51,338        $    0      $    51,338
                                              Facility to Amarillo Airport and return
9/8/01          783AD      11, 12             Corpus Christi Processing and                   34,198              0          34,198
                                              Distribution Center to Corpus Christi
                                              Airport and return
10/19/02        720CA      15, 16             Little Rock Processing and Distribution         70,518          7,059          63,459
                                              Center to Little Rock Air Mail Center and
                                              return
10/19/02        720CA      51, 52             Little Rock Processing and Distribution         52,337          5,239          47,098
                                              Center to Hillcrest, Arkansas, Associate
                                              Office and return
10/19/02        720CA      85, 86             Little Rock Processing and Distribution         73,665          7,374          66,291
                                              Center to Industrial Station and return
10/19/02        720CA      131, 132           Little Rock Processing and Distribution         76,153          7,623          68,530
                                              Center to Westside Station and return
10/19/02        720CA      197, 198           Little Rock Processing and Distribution         74,481          7,456          67,025
                                              Center to Maumelle Station and return
10/19/02        720CA      237, 238           Little Rock Processing and Distribution         34,856          3,489          31,367
                                              Center to Sherwood Station and return
10/19/02        720CA      267, 268           Little Rock Air Mail Center to ALLTEL 2         61,523          6,158          55,365
                                              and return
10/19/02        700L8      4, 5               Covington, Louisiana, Associate Office to       35,030              0          35,030
                                              Mandeville, Louisiana, Associate Office
                                              and return
7/13/02         77329      1, 2               North Houston Processing and                    91,601              0          91,601
                                              Distribution Center to Baytown, Texas,
                                              Associate Office and return
1/5/02          730AA      201, 202, 211,     Oklahoma City Processing and                    22,135              0          22,135
                           and 212            Distribution Center to Dell City Carrier
                                              Station and return



                                                                  11
                                                        Restricted Information
Highway Network Scheduling – Southwest Area                                                                   TD-AR-03-010



                          APPENDIX C. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                  WHICH PLANT MANAGERS DISAGREED
  Effective
Date of Last   Highway                                                                                                  Estimated
  Contract     Contract                                                                    Contract     Indemnity         Cost
  Change        Route        Trip Number                  Origin/Destination               Savings         Fees          Savings
1/5/02          730AA      307, 304           Oklahoma City Processing and                 $ 136,873         $    0      $ 136,873
                                              Distribution Center to Hefner Station and
                                              return
1/5/02          730AA      511, 506           Oklahoma City Processing and                     95,624             0           95,624
                                              Distribution Center to Moore Station and
                                              return
1/5/02          730AA      605, 606           Oklahoma City Processing and                     74,062             0           74,062
                                              Distribution Center to Penn 89 Station
                                              and return
1/5/02          730AA      709, 706           Oklahoma City Processing and                    105,936             0          105,936
                                              Distribution Center to Village Station and
                                              return
1/5/02          730AA      807, 808           Oklahoma City Processing and                    107,811             0          107,811
                                              Distribution Center to Warr Acres Station
                                              and return
1/5/02          730AA      901, 902           Oklahoma City Processing and                     42,187             0           42,187
                                              Distribution Center to State Capitol and
                                              return
1/5/02          730AA      903, 904           Oklahoma City Processing and                     13,125             0           13,125
                                              Distribution Center to Center City Station
                                              and return
1/5/02          730AA      1003, 1004         Oklahoma City Processing and                     48,749             0           48,749
                                              Distribution Center to Martin Luther King
                                              Junior Station and return
1/5/02          730AA      1005               Oklahoma City Processing and                     12,656             0           12,656
                                              Distribution Center to Eastside Carrier
                                              Station
1/5/02          730AA      1006               Eastside Carrier Station to Oklahoma             20,192             0           20,192
                                              City Processing and Distribution Center




                                                                  12
                                                        Restricted Information
Highway Network Scheduling – Southwest Area                                                                      TD-AR-03-010



                          APPENDIX C. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                  WHICH PLANT MANAGERS DISAGREED
  Effective
Date of Last   Highway                                                                                                     Estimated
  Contract     Contract                                                                    Contract      Indemnity           Cost
  Change        Route        Trip Number                  Origin/Destination               Savings          Fees            Savings
1/5/02          730AA      1103, 1112         Oklahoma City Processing and                      58,593               0           58,593
                                              Distribution Center to Stockyards Station
                                              and return
1/5/02          730AA      1505, 1506         Oklahoma City Processing and                      53,437               0           53,437
                                              Distribution Center to Southwest Station
                                              and return
1/5/02          730AA      1707, 1708         Oklahoma City Processing and                      67,499               0           67,499
                                              Distribution Center to 39th Street Station
                                              and return
1/5/02          730AA      2405, 2406 and     Oklahoma City Processing and                 $     7,500       $       0      $     7,500
                           2407, 2408 or      Distribution Center to Oklahoma City
                           2411, 2412         Central Markup Forwarding Unit and
                                              return
1/5/02          730AA      2625, 2626 and     Oklahoma City Processing and                     214,976               0          214,976
                           2303, 2304         Distribution Center to Oklahoma City Air
                                              Mail Facility and return
1/5/02          730AA      4203, 4204 and     Oklahoma City Processing and                      57,280               0           57,280
                           4207, 4208         Distribution Center to Standard B Annex
                                              and return
1/5/02          730AA      4301 or 4303       Oklahoma City Processing and                      14,399               0           14,399
                                              Distribution Center to Standard B Annex
1/5/02          730AA      4304, 4305         Standard B Annex to Oklahoma City Mail            27,518               0           27,518
                                              Processing Annex and return
1/5/02          730AA      4401, 4402         Oklahoma City Mail Processing Annex to            27,367               0           27,367
                                              Standard B Annex and return
1/5/02          730AA      2415, 2416         Oklahoma City Mail Processing Annex to            70,312               0           70,312
                                              Oklahoma City Processing and
                                              Distribution Center and return




                                                                  13
                                                        Restricted Information
Highway Network Scheduling – Southwest Area                                                                     TD-AR-03-010



                          APPENDIX C. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                  WHICH PLANT MANAGERS DISAGREED
  Effective
Date of Last   Highway                                                                                                    Estimated
  Contract     Contract                                                                     Contract      Indemnity         Cost
  Change        Route        Trip Number                   Origin/Destination               Savings          Fees          Savings
1/5/02          730AA      4001-4004, 4007-      Oklahoma City Mail Processing Annex to        500,610                0        500,610
                           4010, 4013, 4014      Standard B Annex and return
                           4017, 4018, 4021,
                           4022, 4025, 4026,
                           4047-4052
11/7/01         710AD      37, 38                Shreveport Processing and Distribution          10,768               0           10,768
                                                 Center to Shreveport Airport and return
10/5/02         740BD      11, 12, 13, 14, 21,   Tulsa Processing and Distribution Center   $   164,704       $16,487          $ 148,217
                           22, 23, 24            to Tulsa Air Mail Facility and return
Total                      101 Trips                                                        $ 2,610,013       $60,885          $2,549,128




                                                                     14
                                                           Restricted Information
Highway Network Scheduling – Southwest Area                    TD-AR-03-010



                    APPENDIX D. MANAGEMENT’S COMMENTS




                                                15
                                      Restricted Information
Highway Network Scheduling – Southwest Area                     TD-AR-03-010




                                                 16
                                       Restricted Information
